           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      FOLLOW-UP ON DISABLED
        TITLE II BENEFICIARIES
      WITH EARNINGS REPORTED
    ON THE MASTER EARNINGS FILE

    April 2009   A-01-08-28075



 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      April 15, 2009                                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up on Disabled Title II Beneficiaries with Earnings Reported on the Master
           Earnings File (A-01-08-28075)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           evaluated earnings reported to the Master Earnings File (MEF) for disabled individuals
           receiving Title II benefits.

           BACKGROUND
           SSA pays disability benefits to eligible individuals under Title II of the Social Security
           Act. 1 An individual is considered disabled under the Social Security Act if he or she is
           unable to engage in any substantial gainful activity (SGA) because of a medically
           determinable impairment that (1) can be expected to result in death or (2) has lasted (or
           can be expected to last) for a continuous period of at least 12 months. 2

           SSA defines SGA as work activity that involves significant physical or mental activities
           performed for pay or profit. 3 The Agency has criteria for determining when services
           performed or earnings derived from services demonstrate an individual's ability to
           engage in SGA. 4 For example, for Calendar Year 2008, SSA generally considered
           earnings of $940 per month to reflect SGA. 5




           1
               The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
               The Social Security Act § 223(d)(1), 42 U.S.C. § 423(d)(1).
           3
               20 C.F.R. § 404.1572.
           4
               SSA, POMS, DI 10500.
           5
               Special rules apply to individuals who are blind. We did not include blind individuals in our review.
Page 2 - The Commissioner


HOW WORK AFFECTS DISABILITY BENEFITS

Disabled beneficiaries are granted trial work periods during which they may test their
ability to work while still receiving benefits.6 If SSA determines a beneficiary continues
to be disabled after the trial work period ends, benefits can continue to be paid during
an extended period of eligibility. 7 During this period, SSA will pay benefits for any
month in which the beneficiary does not engage in SGA. If the beneficiary engages in
SGA at any time after the extended period of eligibility, eligibility for Title II disability
benefit payments ends. However, individuals whose entitlement ended because of
SGA may become entitled to benefits again if they are no longer engaging in SGA and
continue to be disabled. (See Appendix B for additional background information.)

DETECTING AND EVALUATING UNREPORTED EARNINGS

Although disabled beneficiaries are required to report work activity, 8 individuals do not
always do so. Therefore, SSA uses its Continuing Disability Review Enforcement
Operation to compare earnings reported on the MEF to the benefit rolls. 9 This
Enforcement Operation identifies potentially unevaluated substantial earnings that may
affect benefit entitlement and alerts SSA to review the earnings. SSA must perform a
work-related continuing disability review (CDR) when earnings indicate the beneficiary
has returned to work at the SGA level. 10 In 2004, the Agency implemented an
automated system called eWork to assist in controlling and processing work-related
CDRs.

In our July 2004 report, Disabled Title II Beneficiaries with Earnings Reported on the
Master Earnings File, we stated that SSA did not evaluate all earnings reported to the
MEF between 1996 and 2000 for disabled individuals receiving Title II benefits as of
March 2002. We estimated that approximately $1.37 billion in overpayments resulting
from about 63,000 disabled beneficiaries’ work activity was not identified. (See
Appendix C for recommendations included in our prior report.)




6
  SSA, POMS, DI 13010.035. Generally, beneficiaries are granted 9 trial work months (which do not need
to be consecutive) during a rolling 60-month period.
7
  SSA, POMS, DI 13010.210. The extended period of eligibility begins with the month immediately
following the completion of the trial work period and lasts 36 consecutive months.
8
    20 C.F.R. § 404.1588.
9
    The MEF is a repository of earnings information maintained by SSA.
10
  20 C.F.R. § 404.1590(b)(5). Because earnings posted to an individual’s earnings record may include
amounts that are not related to current work (e.g., bonuses, termination pay and sick pay), SSA must
evaluate the earnings to determine whether they represent earnings from SGA performed after
entitlement to disability benefits began.
Page 3 - The Commissioner


To perform our follow-up review, we identified 25,904 disabled beneficiaries (from
1 Social Security number segment) who were receiving Title II benefits as of July 2007
and had earnings reported on the MEF between 2001 and 2006 that may impact their
entitlement to benefits.11 We randomly selected 275 cases from this population for
detailed analysis. (See Appendix D for more information on our scope, methodology
and sample results.)

RESULTS OF REVIEW
The Agency made efforts to reduce overpayments resulting from work activity.
However, we found that SSA did not evaluate all earnings posted to the MEF, and as a
result, overpayments resulted from work activity.

Based on our review, we estimate that approximately $3.1 billion was overpaid to about
173,000 disabled beneficiaries because of work activity. 12 Although the Agency
identified about $1.8 billion of these overpayments to approximately
141,000 beneficiaries, we estimate about $1.3 billion in overpayments to approximately
49,000 beneficiaries went undetected by SSA. 13 As of March 2009, the Agency had
successfully recovered about $615 million of the approximately $3.1 billion overpaid due
to work activity.

Furthermore, we estimate about 24,000 of the 49,000 beneficiaries were no longer
entitled to disability benefits because of work activity. Finally, we estimate SSA will
continue to incorrectly pay about $382 million over the next 12 months to individuals
who are no longer entitled to disability benefits if action is not taken by the Agency.




11
   The last 2 digits of the Social Security number are randomly assigned and can contain digits “00” to
“99.” Social Security numbers can be categorized into 20 segments, each containing 5 sequential groups
of these digits. For this audit, we randomly selected Social Security numbers ending with the digits “50”
to “54” from 1 Social Security number segment. In total, we estimate there are approximately
518,080 beneficiaries in all 20 segments.
12
  When primary workers are ineligible for benefits because of work activity, any auxiliary beneficiaries
(e.g., spouses and children) are also ineligible. Therefore, our overpayment calculations and estimates
include overpayments to the working beneficiaries as well as overpayments to auxiliary beneficiaries.
13
  The 49,000 beneficiaries include about 17,000 beneficiaries for whom SSA identified some of the
overpayments resulting from work activity, but not all overpayments.
Page 4 - The Commissioner


Of the 275 beneficiaries in our sample:
                                                                 Sample Results
• 92 (34 percent) were overpaid about                                                 4 Still Being
  $1.7 million because of work                       179 Not                          Reviewed By
                                                     Overpaid
  activity; 14                                                                            SSA


• 179 (65 percent) were not overpaid
  despite earnings on the MEF; 15 and                                                   92 Overpaid
                                                                                        $1.7 Million
                                                                                        Due to Work
• 4 (1 percent) were still being reviewed                                                 Activity
  by SSA as of March 2009.

BENEFICIARIES OVERPAID DUE TO WORK ACTIVITY

In total, 92 beneficiaries in our sample were overpaid about $1.7 million due to work
activity. 16 Although SSA identified about $977,000 of these overpayments to
75 beneficiaries, the Agency did not evaluate all work activity for 26 beneficiaries. (The
26 beneficiaries includes 9 beneficiaries for whom SSA identified some of the
overpayments resulting from work activity, but not all overpayments.) As a result,
overpayments totaling about $709,000 went undetected by the Agency to these
26 beneficiaries. 17 This includes

     •   13 cases in which benefit entitlement terminated because the extended periods
         of eligibility ended and work continued, 18 and

     •   13 cases in which the beneficiaries were not due some of the benefits paid to
         them because of their work in an extended period of eligibility.




14
  This includes four beneficiaries overpaid about $97,000 for which SSA will post overpayments once it
completes its review of the earnings.
15
  For example, SSA determined earnings for 100 beneficiaries were below SGA amounts and therefore
did not result in overpayments. See Appendix E for additional reasons why beneficiaries were not
overpaid despite their earnings.
16
   As of March 2009, SSA had recovered about $326,000 (or 19 percent) of the $1.7 million overpaid due
to work from 66 beneficiaries. (The $326,000 only includes amounts successfully recovered by SSA—it
does not include any amounts waived or deleted by the Agency.)
17
   Overpayment periods ranged from 1 month to 81 months, with an average of 25 months and a median
of 18 months.
18
  Because SSA performed work-related CDRs at our request, we estimate the Agency saved about
$203,000 by terminating benefit payments to these 13 individuals that otherwise would have been paid
over the next 12 months.
Page 5 - The Commissioner


Opportunities Existed to Identify and Evaluate Earnings

In our prior audit, we identified past opportunities in which SSA may have been able to
prevent overpayments resulting from work activity. Despite efforts to ensure earnings
are evaluated, our current audit found that the Agency still missed the opportunity to
evaluate sooner the earnings of all 26 beneficiaries with undetected overpayments.

Earnings Enforcements

SSA’s enforcement process had identified the earnings of all 26 beneficiaries with
undetected overpayments. However, for 19 of these beneficiaries, the Agency did not
evaluate those earnings’ impact on benefits, and as a result, SSA was unaware the
individuals were ineligible for benefits until our audit. According to the Agency,
enforcement alerts are released to staff in large batches three times per year.
Therefore, it could take staff months (or sometimes longer) to work the alerts.

For the remaining seven beneficiaries, the Agency initiated work-related CDRs but did
not complete its review of the beneficiaries’ earnings until our audit. For example, one
beneficiary’s earnings for 2002 through 2004 totaled about $28,000. The Agency
initiated a work-related CDR in 2005 and determined that the beneficiary was not due
some benefits paid to him during his extended period of eligibility—but did not assess
an overpayment. Based on our audit, SSA took action to post the overpayment totaling
$8,747. 19

Benefit Increases

Social Security benefits are based on a worker’s earnings history. Therefore, when
disabled beneficiaries return to work, their benefit amounts may increase (should they
remain entitled to receive benefits). 20 Therefore, SSA periodically reviews earnings and
recalculates benefit amounts to consider recent earnings not included in the original
disability benefit calculation.

In 16 of the 26 cases with undetected overpayments, SSA performed benefit
recalculations and increased benefit payments to beneficiaries without evaluating these
earnings to determine whether the individuals engaged in trial work or SGA. 21
For example, one disabled beneficiary in our sample had earnings in 2005 and
2006 that were significant enough to cause his benefit amount to increase. SSA
processed benefit recalculations and increased his benefit payments each year based

19
  Based on the results of our sample, we estimate the earnings of about 49,000 beneficiaries were
identified through SSA’s enforcement process. In addition, we estimate the Agency initiated work-related
CDRs but did not assess overpayments for approximately 13,000 of the 49,000 beneficiaries.
20
     Benefit amounts are based on the level of earnings resulting from work activity.
21
  All 16 beneficiaries also had earnings identified by SSA through its earnings enforcement process.
Based on the results of our sample, we estimate SSA performed benefit recalculations and increased
benefit payments to about 30,000 beneficiaries without evaluating work activity.
Page 6 - The Commissioner


on his earnings. However, the Agency did not evaluate the earnings to determine
whether the individual engaged in SGA. Based on our audit, SSA evaluated the
earnings and found that the beneficiary’s entitlement terminated because his extended
period of eligibility ended and he continued to work. This beneficiary was overpaid
$70,987 from April 2005 to August 2008. 22

SSA’s EFFORTS TO REDUCE OVERPAYMENTS DUE TO WORK ACTIVITY

Since our prior audit, SSA took the following actions to reduce overpayments resulting
from work activity.

Improving Work-Related CDRs

In 2004, SSA implemented an automated system called eWork to assist in controlling
and processing work-related CDRs. Prior to eWork, the Agency’s CDR process
required the use of multiple SSA systems. The eWork system allows SSA staff to
process work-related CDRs using a centralized national database. According to SSA,
this centralized system improves the work CDR process, and as a result, reduces
overpayments resulting from work activity. 23

Although our current audit still found that a substantial amount of overpayments went
undetected by SSA, the number of work-related CDRs performed by the Agency has
increased since SSA implemented eWork in 2004. In addition, the unit cost per work-
related CDR has decreased each year since 2004 as shown in the table below. 24

                                  Table 1: Cost of Work-Related CDRs
                                 Number of Work-            Unit Cost per
             Fiscal Year          Related CDRs              Work-Related       Total Cost
                                   Performed                    CDR
                 2004                  109,127                  $519.13        $57 Million
                 2005                  140,670                  $511.77        $72 Million
                 2006                  175,644                  $460.57        $81 Million
                 2007                  173,895                  $449.18        $78 Million
                 2008                  170,664                  $397.45        $68 Million




22
     This includes $23,650 paid to the disabled beneficiary’s two children.
23
     SSA, Fiscal Year 2007 Performance and Accountability Report, page 24.
24
     SSA, Division of Cost Analysis Reports, Fiscal Years 2004 through 2008.
Page 7 - The Commissioner


According to Table 1, SSA performed 170,664 work-related CDRs in 2008 at a unit cost
of $397.45. Based on our review, we estimate about $3.1 billion was overpaid to
approximately 173,000 disabled beneficiaries (out of 518,080 in the estimated universe)
because of work activity. To perform work-related CDRs for all 518,080 disabled
beneficiaries, it would cost SSA about $206 million (assuming the $397.45 unit cost
remains the same). This results in a potential benefit-cost ratio of $15.0 to $1.0. 25
Therefore, we believe SSA may achieve greater savings in the long-term if the Agency
could provide the resources to perform work-related CDRs for all disabled beneficiaries
with substantial earnings reported on the MEF.

Benefit Offset Pilot Demonstration

In August 2005, SSA initiated the Benefit Offset Pilot Demonstration Project in four
States to test the effects of reducing disability benefits by $1 for every $2 of earnings
over SGA during the extended period of eligibility. 26 According to SSA, the project will
allow beneficiaries to face a gradual reduction in benefits by eliminating the abrupt loss
of benefits that occur when earnings exceed SGA. 27 Currently, SSA will not pay
benefits for any month during the extended period of eligibility for which the beneficiary
engages in SGA. Therefore, this demonstration project would reduce overpayments
resulting from beneficiaries’ work activity since beneficiaries may still be due a portion of
benefits when earnings exceed SGA. The overall goal of this pilot is to provide
information that will be used to develop a national project. The pilot is expected to end
in April 2009.

CONCLUSION AND RECOMMENDATION
We found that SSA did not evaluate all earnings for disabled individuals, and as a
result, overpayments existed because of work activity. Our current review estimates
that approximately $3.1 billion in overpayments existed because of disabled
beneficiaries’ work activity. Although SSA identified about 58 percent of these
overpayments, we estimate the remaining 42 percent—approximately $1.3 billion—went
undetected by the Agency. In addition, we estimate SSA will continue to incorrectly pay
about $382 million over the next 12 months to disabled beneficiaries no longer entitled
to benefits if the Agency does not act.

We recognize SSA’s efforts to improve the work-related CDR process. In addition, we
acknowledge the Agency’s limited resources with which to perform this workload.


25
  We conducted the following analysis to calculate the benefit-cost ratio: 518,080 beneficiaries in the
estimated universe multiplied by $397.45 unit cost per work-related CDR in 2008 equals $205,910,896.
Dividing the estimated $3.1 billion in overpayments by the $205,910,896 cost to perform the CDRs
equals $15.0.
26
  The pilot will also test the effects of extending the extended period of eligibility from 36 months to
72 months. The four States included in the pilot are Connecticut, Utah, Vermont and Wisconsin.
27
     SSA, Fiscal Year 2007 Performance and Accountability Report, page 22.
Page 8 - The Commissioner


However, we believe SSA may achieve greater savings in the long-term if it could
provide the resources to perform more work-related CDRs.

Therefore, since a significant portion of Title II funds have been overpaid, we
recommend SSA develop and implement a plan to allocate more resources to timely
perform work-related CDRs—and assess overpayments resulting from work activity—
for cases identified by the Agency’s earnings enforcement process.

AGENCY COMMENTS
SSA agreed with the recommendation (see Appendix F).




                                              Patrick P. O’Carroll, Jr.
                                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Status of Recommendations from Prior Audit

APPENDIX D – Scope, Methodology and Sample Results

APPENDIX E – Beneficiaries Not Overpaid Despite Earnings

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
CDR      Continuing Disability Review
CDREO    Continuing Disability Review Enforcement Operation
C.F.R.   Code of Federal Regulations
DCF      Disability Control File
MEF      Master Earnings File
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SGA      Substantial Gainful Activity
SSA      Social Security Administration
U.S.C.   United States Code
                                                                                          Appendix B

Background
Title II of the Social Security Act provides benefits to individuals who—having insured
themselves for benefits through sufficient, recent work under Social Security-covered
employment—have lost their ability to work because of a severe, long-term disability. 1
In addition, the program also provides benefits to disabled adult children and disabled
widow(er)s of insured workers. 2 The number of beneficiaries and total monthly benefits
paid in December 2007 are shown in the table below. 3

                                           BENEFICIARIES                             BENEFITS PAID
     As of December 2007
                                     Number               Percent          Dollars (millions)   Percent
    Disabled Workers                  7,098,723              87%                  $7,127               91%
    Disabled Adult Children             794,677              10%                    $525                 7%
    Disabled Widow(er)s                 224,982               3%                    $145                 2%
        Total                         8,118,382              100%                 $7,797             100%


THE DEFINITION OF DISABILITY

The Social Security Administration (SSA) considers an individual to be disabled if he or
she is unable to engage in any substantial gainful activity (SGA) because of an
impairment that (1) can be expected to result in death, or (2) has lasted (or can be
expected to last) for a continuous period of at least 12 months.4

SUBSTANTIAL GAINFUL ACTIVITY

The Social Security Act grants SSA the authority to establish criteria for determining
when services performed or earnings derived from services demonstrate an individual's
ability to engage in SGA. 5 The Agency defines SGA as work activity that involves
significant physical or mental activities performed for pay or profit. Work may be
substantial even if it is seasonal or part-time, or if the individual does less, is paid less,
or has less responsibility than in previous work. Work activity is gainful if it is the kind of
work usually done for pay or profit, whether or not a profit is realized.

1
 The Social Security Act §§ 223 et seq., 42 U.S.C. § 423 et seq. Generally, when disabled workers are
entitled to benefits, their spouses and children may also be entitled as auxiliary beneficiaries. The Social
Security Act §§ 202 (b), (c) and (d), 42 U.S.C. §§ 402 (b), (c) and (d).
2
    The Social Security Act §§ 202 (d), (e) and (f), 42 U.S.C. §§ 402 (d), (e) and (f).
3
    SSA, Annual Statistical Report on the Social Security Disability Insurance Program, 2007, page 21.
4
    The Social Security Act § 223(d)(1), 42 U.S.C. § 423(d)(1).
5
    The Social Security Act § 223(d)(4)(A), 42 U.S.C. § 423(d)(4)(A).


                                                       B-1
According to SSA, usually the best measurement of a person's ability to work is the
amount of pay received. 6 For example, for Calendar Year 2008, the Agency generally
considered earnings of $940 per month to reflect an individual’s ability to engage in
SGA. However, the Agency only considers wages earned through an individual’s own
effort in determining whether the SGA level is met. For example, if it is necessary for an
employer to provide special help for an individual to work, the value of such special
assistance may be considered a subsidy and deducted from earnings. In addition,
impairment-related work expenses incurred by a disabled individual are also deducted
from earnings before determining whether earnings reflect SGA. Therefore, SSA
considers only the earnings based on the individual’s own productivity in determining
whether earnings reflect SGA.

HOW WORK AFFECTS ENTITLEMENT TO BENEFITS

SSA encourages disabled individuals to return to work. 7 For this reason, beneficiaries
who continue to have disabling conditions are granted trial work periods during which
they may test their ability to work while still receiving their benefits.

THE TRIAL WORK PERIOD

Generally, when 9 trial work months are successfully completed within a 60-month
period, SSA should evaluate the beneficiary's work activity to determine whether the
individual is able to engage in SGA. If a beneficiary demonstrates the ability to engage
in SGA after the trial work period ends, the Agency determines the individual's disability
has ceased and benefit payments end after a 3-month grace period.

EXTENDED PERIOD OF ELIGIBILITY

If a beneficiary still has a disabling impairment but continues to work despite his or her
disability, benefits can be reinstated during the 36-month period after the trial work
period. SSA will pay benefits for any month during this 36-month extended period of
eligibility in which the beneficiary does not engage in SGA (provided the beneficiary
continues to have a disabling impairment). If the beneficiary engages in SGA at any
time after the extended period of eligibility, eligibility for Title II disability benefit
payments ends.8




6
    SSA, POMS, DI 24001.025. A.
7
    SSA, Annual Statistical Report on the Social Security Disability Insurance Program, 2007, page 6.
8
 SSA reported that it terminated benefits to 33,381 disabled beneficiaries during calendar year
2007 because the beneficiaries were performing SGA. (SSA, Annual Statistical Report on the Social
Security Disability Insurance Program, 2007, page 120.)


                                                     B-2
REESTABLISHING ENTITLEMENT

Individuals whose entitlement to benefits ended because of SGA may become entitled
again, if they are no longer engaging in SGA and they still have disabling impairments.




                                          B-3
                                                                          Appendix C

Status of Recommendations from Prior Audit
In July 2004, we issued a report, Disabled Title II Beneficiaries with Earnings Reported
on the Master Earnings File (A-01-03-13019). The following tables list the
recommendations from the prior report, the Social Security Administration’s (SSA)
actual/proposed actions when the report was issued, and the status as of March 2009.

Recommendation 1 – Review past cases where significant earnings are present on the MEF
and no determination has been made regarding trial work and/or SGA.

SSA’s Comments         SSA agreed to review cases with significant earnings on the Master
and/or Actions from    Earnings File (MEF) where no determination had been made regarding
July 2004 Report       trial work/Substantial Gainful Activity (SGA) and take action where it was
                       cost beneficial to do so and as resources permitted.

Status as of 2009      Although SSA originally agreed with this recommendation, it later reversed
                       its position and decided not to work past cases. SSA stated it would not
                       be a prudent use of its limited resources to review work that had already
                       been closed out. However, our recommendation referred to cases not
                       previously worked by SSA.




                                            C-1
Recommendation 2 – Ensure that future earnings enforcements are adequately controlled by
management and resolved timely.

SSA’s Comments        SSA agreed with this recommendation. The Agency stated it was tracking
and/or Actions from   earnings enforcement through its Continuing Disability Review
July 2004 Report      Enforcement Operation (CDREO) system. SSA also stated that the
                      CDREO system had been integrated with the Agency’s Disability Control
                      File (DCF), which controls the earnings enforcement issues that the
                      CDREO system generates. SSA was also analyzing a comprehensive
                      matching interface that would provide verification of earnings for both
                      Title II and XVI beneficiaries and ensure earnings enforcement actions
                      generated by the CDREO system were controlled until completed. The
                      Agency also stated it had initiated steps to improve and accelerate the
                      process of wage reporting for individuals who returned to work.

Status as of 2009     CDREO was integrated with the DCF. In addition, the Agency stated it
                      had implemented a matching interface to verify earnings for both Title II
                      and XVI beneficiaries. Furthermore, Area Work Incentive Coordinators
                      were established to assist in monitoring work-related issues and help
                      ensure earnings enforcements are properly managed and resolved timely.
                      Despite significant efforts to implement this recommendation, our current
                      audit estimates about 49,000 beneficiaries with undetected overpayments
                      had earnings that were identified by SSA through its earnings enforcement
                      process; however, the earnings were not evaluated to determine their
                      impact on benefit entitlement.
                      In 2004, SSA also implemented eWork, which allows SSA staff to process
                      work-related continuing disability reviews (CDR) using a centralized
                      national database. According to SSA, this centralized system improves
                      the work-related CDR process, and as a result, reduces overpayments
                      resulting from work activity. Although we recognize SSA’s efforts to
                      improve the work-related CDR process, our current audit still estimates
                      that approximately $3.1 billion in overpayments resulted from disabled
                      beneficiaries’ work activity. Although SSA identified about 58 percent of
                      these overpayments, we estimate the remaining 42 percent—
                      approximately $1.3 billion—went undetected by the Agency.
                      SSA also conducted an analysis of the Office of Child Support and
                      Enforcement database of new hires to determine whether a match with
                      this database would be useful to SSA in identifying unreported work
                      activity. SSA concluded that an ongoing matching operation with the new
                      hires database—and the early knowledge of new employment—would
                      have little, if any, effect in reducing improper payments. The Agency
                      found that an ongoing matching operation would not suspend or terminate
                      disability benefits any sooner than the Agency’s work-related CDR
                      process.




                                           C-2
Recommendation 3 – Ensure that earnings reported on the MEF or disclosed on beneficiary-
completed forms are evaluated when medical CDRs are performed or mailer CDR forms are
received.

SSA’s Comments            SSA agreed with this recommendation. The Agency stated it was
and/or Actions from       providing employment support training to all direct service employees that
July 2004 Report          would help ensure all reported earnings are evaluated. SSA also stated
                          the DCF now had the ability to control both a pending work issue and an
                          appending medical issue at the same time. Before November 2002, SSA
                          could only control one issue at a time.

Status as of 2009         SSA provided employment support training to all direct service employees
                          in the fall of 2003. In addition, the implementation of eWork in 2004
                          assisted the Agency in controlling and processing both disability work
                          activity and work-related CDRs.

Recommendation 4 – Ensure that earnings resulting in benefit increases are evaluated to
determine whether trial work activity and/or SGA were performed.

SSA’s Comments            SSA agreed with this recommendation stating that by enhancing its ability
and/or Actions from       to control and timely resolve earnings enforcements (as previously
July 2004 Report          described), it would also be able to ensure earnings resulting in benefit
                          increases are evaluated. All earnings that would be indicative of a return
                          to work and that would result in a benefit increase would trigger controlled
                          earnings enforcement actions.

Status as of 2009         Despite efforts to implement this recommendation, our current audit
                          estimates the Agency performed benefit recalculations and increased
                          benefit payments to about 30,000 beneficiaries without evaluating whether
                          the earnings resulted from trial work activity or SGA.


The following table compares the populations and results from our prior audit with our
current audit.

                                          Prior Audit                        Current Audit
Population (one segment)        29,871 Beneficiaries Receiving        25,904 Beneficiaries Receiving
                                    Benefits as of March 2002               Benefits as of July 2007
Years of Earnings Reported
                                                   1996 to 2000                          2001 to 2006
to the MEF
Overpayments Due to
                                                     $3.2 Billion                          $3.1 Billion
Work Activity
Overpayments Identified
                                                     $1.8 Billion                          $1.8 Billion
by SSA
Overpayments Undetected
                                     $1.4 Billon (or 44 percent)           $1.3 Billion (or 42 percent)
by SSA




                                               C-3
                                                                                  Appendix D

Scope, Methodology and Sample Results
To accomplish our objective, we:

       Reviewed applicable sections of the Social Security Act and the Social Security
        Administration’s (SSA) regulations, rules, policies and procedures.

       Reviewed prior Office of the Inspector General reports.

       Obtained a file of all disabled Title II beneficiaries from 1 of 20 Social Security
        number segments who were receiving benefits as of July 2007. 1 We then
        determined which of these beneficiaries had earnings reported on the Master
        Earning File (MEF) for years 2001 to 2006. We further narrowed this population
        by excluding cases in which

          1. the beneficiaries were entitled to disability benefits based on blindness or

          2. the reported earnings were in the year of, or before, the beneficiaries’
             current date of entitlement for benefits.

       Identified a population of 25,904 beneficiaries with earnings reported on the MEF
        between 2001 and 2006 that may impact their entitlement to benefits.

       Selected a random sample of 275 cases from the population we identified for
        detailed analysis. Specifically, we analyzed available information on the
        Agency’s systems to determine whether SSA evaluated the reported earnings
        and adjusted benefit payments, as appropriate. For cases in which we needed
        additional information, we requested the assistance of SSA to determine whether
        the earnings represented work activity that impacted entitlement to benefits. For
        cases in which overpayments resulted due to work activity, we determined the
        amount successfully recovered by SSA. In addition, for cases in which
        overpayments resulted due to our audit, we determined whether opportunities
        existed to identify and evaluate the earnings sooner.

We performed our audit between May 2008 and March 2009 in Boston, Massachusetts.
We tested the data obtained for our audit and determined them to be sufficiently reliable
to meet our objective. The principal entities audited were the Offices of Employment

1
  The last 2 digits of the Social Security number are randomly assigned and can contain digits “00” to
“99.” Social Security numbers can be categorized into 20 segments, each containing 5 sequential groups
of these digits. For this audit, we randomly selected Social Security numbers ending with the digits “50”
to “54.” For our prior review, we sampled cases with Social Security numbers ending with digits “55” to
“59.”



                                                  D-1
Support Programs and Disability Programs under the Deputy Commissioner for
Retirement and Disability Policy, and the Office of Disability Determinations and SSA's
Field Offices and Program Service Centers under the Deputy Commissioner for
Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

SAMPLE RESULTS

                                  Table D-1: Population and Sample Size
    Population (one segment)                                                                    25,904
    Sample Size                                                                                     275
    Estimated Number of Beneficiaries in the Universe (Population of audited
                                                                                               518,080
    segment multiplied by 20)



                                                       2              Number of
    Table D-2: Overpayments Due to Work Activity                                          Dollars
                                                                     Beneficiaries
    Sample Results                                                               92         $1,686,409
    Point Estimate                                                             8,666     $158,853,595
     Projection Lower Limit                                                    7,452     $120,159,873
     Projection Upper Limit                                                    9,949     $197,547,318
    Estimate in 20 Segments (Point estimate multiplied by 20)               173,320    $3,177,071,900
     Note: All Projections are at the 90-percent confidence level.



    Table D-3: Overpayments Due to Work Activity                      Number of
                                                                                          Dollars
    Identified by SSA Prior to Our Audit                             Beneficiaries
    Sample Results                                                               75          $977,350
    Point Estimate                                                             7,065      $92,062,816
     Projection Lower Limit                                                    5,931      $68,918,296
     Projection Upper Limit                                                    8,293     $115,207,336
    Estimate in 20 Segments (Point estimate multiplied by 20)               141,300    $1,841,256,320
     Note: All Projections are at the 90-percent confidence level.


2
  When primary workers are ineligible for benefits because of work activity, any auxiliary beneficiaries
(e.g., spouses and children) are also ineligible. Therefore, our overpayment calculations and estimates
include overpayments to the working beneficiaries as well as auxiliary beneficiaries during the current
entitlement for benefits.


                                                      D-2
                                                        3             Number of
    Table D-4: Overpayments Not Identified by SSA                                       Dollars
                                                                     Beneficiaries
    Sample Results                                                               26         $709,059
    Point Estimate                                                            2,449      $66,790,779
     Projection Lower Limit                                                   1,742      $36,733,160
     Projection Upper Limit                                                   3,330      $96,848,399
    Estimate in 20 Segments (Point estimate multiplied by 20)                48,980   $1,335,815,580
     Note: All Projections are at the 90-percent confidence level.


    Table D-5: Overpayments Successfully Recovered by                 Number of         Dollars
    SSA                                                              Beneficiaries
    Sample Results                                                               66         $326,438
    Point Estimate                                                            6,217      $30,749,273
     Projection Lower Limit                                                   5,137      $21,616,124
     Projection Upper Limit                                                   7,406      $39,882,421
    Estimate in 20 Segments (Point estimate multiplied by 20)              124,340      $614,985,460
     Note: All Projections are at the 90-percent confidence level.



    Table D-6: Benefits SSA Will Continue to Pay to                   Number of
    Disabled Beneficiaries No Longer Entitled to Benefits            Beneficiaries      Dollars
    Due to Work Activity
    Sample Results                                                               13         $202,536
    Point Estimate                                                            1,225      $19,078,155
     Projection Lower Limit                                                    733        $9,709,897
     Projection Upper Limit                                                   1,916      $28,446,413
    Estimate in 20 Segments (Point estimate multiplied by 20)                24,500     $381,563,100
     Note: All Projections are at the 90-percent confidence level.



    Table D-7: Number of Beneficiaries’ Earnings Identified Through SSA’s              Number of
    Enforcement Process                                                               Beneficiaries
    Sample Results                                                                                26
    Point Estimate                                                                             2,449
     Projection Lower Limit                                                                    1,742
     Projection Upper Limit                                                                    3,330
    Estimate in 20 Segments (Point estimate multiplied by 20)                                 48,980
     Note: All Projections are at the 90-percent confidence level.


3
 The 26 beneficiaries with undetected overpayments include 9 beneficiaries for whom SSA identified
some of the overpayments resulting from work activity, but not all overpayments.


                                                      D-3
Table D-8: Number of Beneficiaries SSA Initiated Work-Related Continuing    Number of
Disability Reviews but Did Not Assess Overpayments                         Beneficiaries
Sample Results                                                                             7
Point Estimate                                                                        659
 Projection Lower Limit                                                               313
 Projection Upper Limit                                                              1,221
Estimate in 20 Segments (Point estimate multiplied by 20)                          13,180
 Note: All Projections are at the 90-percent confidence level.



Table D-9: Number of Beneficiaries SSA Performed Benefit
                                                                            Number of
Recalculations and Increased Benefit Payments Without Evaluating the
                                                                           Beneficiaries
Beneficiaries’ Work Activity
Sample Results                                                                         16
Point Estimate                                                                       1,507
 Projection Lower Limit                                                               957
 Projection Upper Limit                                                              2,250
Estimate in 20 Segments (Point estimate multiplied by 20)                          30,140
 Note: All Projections are at the 90-percent confidence level.



Table D-10: Number of Beneficiaries SSA Identified Some of the              Number of
Overpayments Resulting from Work Activity, but Not All Overpayments        Beneficiaries
Sample Results                                                                             9
Point Estimate                                                                        848
 Projection Lower Limit                                                               447
 Projection Upper Limit                                                              1,458
Estimate in 20 Segments (Point estimate multiplied by 20)                          16,960
 Note: All Projections are at the 90-percent confidence level.




                                                  D-4
                                                                                       Appendix E

Beneficiaries Not Overpaid Despite Earnings
For 179 of the 275 cases in our sample, earnings reported on the Master Earnings File
did not result in overpayments. The following table describes the various reasons why
the beneficiaries were not overpaid despite their earnings.

                                                                                                Number of
                  Reasons Why Beneficiaries Were Not Overpaid
                                                                                               Beneficiaries
    Earnings were below Substantial Gainful Activity (SGA) amounts. 1                                100
                                                       2
    Earnings resulted from trial work activity only.                                                   38
    Earnings represented special wage payments (e.g., sick pay).                                       20
    Earnings resulted from subsidized work. 3                                                           9
    Earnings were substantial, but SSA stopped benefits timely and no
                                                                                                        5
    overpayments resulted.
    Earnings resulted from unsuccessful work attempts. 4                                                4
    Earnings did not belong to the beneficiary.                                                         3
    Total                                                                                            179




1
  An individual is considered disabled under the Social Security Act if he or she is unable to engage in any
SGA because of a medically determinable impairment that (1) can be expected to result in death or
(2) has lasted (or can be expected to last) for a continuous period of at least 12 months. The Social
Security Act § 223(d)(1), 42 U.S.C. § 423(d)(1). The Agency has criteria for determining when services
performed or earnings derived from services demonstrate an individual's ability to engage in SGA. (SSA,
POMS, DI 10500) For example, for Calendar Year 2008, SSA generally considered earnings of $940 per
month to reflect SGA.
2
    This includes two beneficiaries who died before they completed their trial work periods.
3
  SSA only considers wages earned through an individual’s own effort in determining whether earnings
represent SGA. Therefore, if it is necessary for an employer to provide special help for an individual to
work, the value of such help is considered a subsidy and deducted from earnings before determining
whether the earnings represent SGA. SSA, POMS DI 24001.025.A.
4
  SSA defines unsuccessful work attempts as efforts to do substantial work that discontinue after a short
time. SSA, POMS, DI 10501.055. The Agency does not consider wages earned during unsuccessful
work attempts in its determination of SGA.
                  Appendix F

Agency Comments
                                        SOCIAL SECURITY
Date:      April 2, 2009                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Follow-up on Disabled Title II
           Beneficiaries with Earnings Reported on the Master Earnings File” (A-01-08-28075)—
           INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Our response to the report recommendation is attached.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                        F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“FOLLOW-UP ON DISABLED TITLE II BENEFICIARIES WITH EARNINGS
REPORTED ON THE MASTER EARNINGS FILE” (A-01-08-28075)

Our response to your specific recommendation is as follows.

Recommendation

Develop and implement a plan to allocate more resources to timely perform work-related
continuing disability reviews (CDRs)---and assess overpayments resulting from work activity---
for cases identified by the agency’s earnings enforcement process.

Comment

We agree. With the resources provided by the Recovery Act and our fiscal year 2009
appropriations, field offices will be able to reduce the pending levels of workloads, including
work CDRs.




                                                F-2
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Jeffrey Brown, Audit Manager

Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   Melinda Padeiro, Senior Auditor

   Kathleen Toli, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-08-28075.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                               Office of Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
